Report No. D-2008-108           July 18, 2008




      Agreed-Upon Procedures Related to
       the 10th Edition of the Army Chief
        Financial Officers Strategic Plan
  Additional Information and Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax
  (703) 604-8932.

  Suggestions for Audits

  To suggest ideas for or to request future audits, contact the Office of the Deputy
  Inspector General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704




Acronyms
CFO                   Chief Financial Officers
DASA (FO)             Deputy Assistant Secretary of the Army (Financial Operations)
DFAS                  Defense Finance and Accounting Service
DoD FMR               Department of Defense Financial Management Regulation
DoD OIG               Department of Defense Office of the Inspector General
                                INSPECTOR GENERAL
                              DEPARTMENT OF DEFENSE
                               400 ARMY NAVY DRIVE
                          ARLINGTON, VIRGINiA 22202-4704



                                                                             July 18, 2008

MEMORANDUM FOR ASSISTANT SECRETARY OF THE ARMY (FINANCIAL
                 MANAGEMENT AND COMPTROLLER)
               DIRECTOR, DEFENSE FINANCE AND ACCOUNTING
                 SERVICE
               AUDITOR GENERAL, DEPARTMENT OF THE ARMY

SUBJECT: Report on Agreed-Upon Procedures Related to the 10th Edition of the Anny
         Chief Financial Officers Strategic Plan (Report No. D-2008-108)

        Weare providing this report for review and comment. The Secretary of the Anny
did not respond to the draft report; however, we considered comments from Assistant
Secretary of the Anny (Financial Management & Comptroller) and Defense Finance and
Accounting Service Indianapolis Operations when preparing the final report.

       DoD Directive 7650.3 requires that all recommendations be resolved promptly.
Therefore, we request that the Secretary of the Anny provide comments on
Recommendation 1 by August 28, 2008.

        If possible, please send management comments in electronic format (Adobe
Acrobat file only) to auddfs@dodig.osd.mil. Copies of the management comments must
contain the actual signature of the authorizing official. We cannot accept the / Signed /
symbol in place of the actual signature. If you arrange to send classified comments
electronically, they must be sent over the SECRET Internet Protocol Router Network
(SIPRNET).

        We appreciate the courtesies extended to the staff. Questions should be directed
to Mr. Jack Annstrong at (317) 510-4801, ext. 274 (DSN 698-4801). See Appendix D
for the report distribution. The team members are listed inside the back cover.



                                        lJt' -.....
                                      fVi"
                                         DlJ,  J'         /71"
                                            II V\..A.p,-", v ,-"

                                     Patricia A. Marsh, CPA
                                    Assistant Inspector General
                                 Defense Finance Auditing Service
               Department of Defense Office of Inspector General
Report No. D-2008-108                                                       July 18, 2008
  (Project No. D2007-D000FL-0123.000)

        Agreed-Upon Procedures Related to the 10th Edition of the
              Army Chief Financial Officers Strategic Plan

                                Executive Summary

Who Should Read This Report and Why? Army financial and functional managers
responsible for implementing the Army Chief Financial Officers Strategic Plan (the
Strategic Plan) should read this report. It specifies actions Army managers can take to
improve the Strategic Plan.

Background. We performed this assessment of the 10th Edition of the Strategic Plan at
the request of the Assistant Secretary of the Army (Financial Management and
Comptroller). The Army General Fund and Army Working Capital Fund FY 2007
financial statements reported $286.9 billion in assets and $294.3 billion in budgetary
resources. Deficiencies in financial management systems and uncorrected material
internal control weaknesses have prevented the Army from receiving an unqualified audit
opinion. The Army developed the Strategic Plan as a blueprint for achieving an
unqualified audit opinion on its financial statements. The Deputy Assistant Secretary of
the Army (Financial Operations) has overall responsibility for the Strategic Plan. The
staff agencies are responsible for devising and executing detailed plans to implement
tasks in the Strategic Plan.

Results. The Strategic Plan did not identify actions needed to correct material internal
control deficiencies and to implement financial requirements. In addition, the Strategic
Plan task milestones were not feasible. Although the Strategic Plan has improved the
Army’s ability to identify and track the tasks necessary to comply with financial
requirements and correct internal control weakness, the lack of staff agency
implementation plans has limited progress towards achieving financial accountability and
obtaining an unqualified audit opinion on the Army financial statements. As a result, the
10th Edition of the Army Strategic Plan was not an effective tool for correcting Army’s
financial accounting and reporting deficiencies. Also, the Army has made limited
progress towards achieving financial accountability and obtaining an unqualified audit
opinion on the Army financial statements. Until the Army achieves these goals, its
financial resources are at risk. If the Army financial statements cannot achieve an
unqualified audit opinion, the DoD Agency-Wide and the Federal Government-Wide
financial statements will not achieve one.

The Secretary of the Army should issue policy to ensure that Army staff agencies follow
Deputy Assistant Secretary of the Army (Financial Operations) guidance concerning the
Strategic Plan process. The Director, Defense Finance and Accounting Service should
implement the standards and guidance issued by the Deputy Assistant Secretary of the
Army (Financial Operations). The Deputy Assistant Secretary of the Army (Financial
Operations) should establish guidance that includes instructions on form and content of
implementation plans, procedures for developing and updating milestone dates, and
instructions on documenting the progress of task completion. The Deputy Assistant
Secretary of the Army (Financial Operations) should also identify the roles and
responsibilities for plan management and implementation, and ensure that Strategic Plan
task completion dates are aligned with critical system implementation dates. The agreed-
upon procedures for this assessment did not include a review of the internal controls over
the Strategic Plan.

Management Comments. The Secretary of the Army did not provide comments to the
draft report issued on March 27, 2008; therefore, we request that the Secretary of the
Army provide comments on Recommendation 1 by August 28, 2008. The Deputy
Assistant Secretary of the Army (Financial Operations) concurred with the finding and
recommendations 2 and 3; therefore, no additional comments are required. See the
Finding section of the report for a discussion of management comments and the
Management Comments section of the report for the complete text of the comments.




                                            ii
Table of Contents

Executive Summary                                                             i

Background                                                                   1

Objectives                                                                   3

Review of Internal Controls                                                  3

Finding
     Army CFO Strategic Plan                                                 4

Appendixes
     A.   Scope and Methodology                                              13
     B.   Staff Agencies                                                     15
     C.   Financial Management Systems                                       17
     D.   Report Distribution                                                18

Management Comments
     Office of the Assistant Secretary of the Army (Financial Management &
        Comptroller)                                                         21
     Defense Finance and Accounting Service Indianapolis Operations          24
Background
    The Deputy Assistant Secretary of the Army (Financial Operations) [DASA (FO)]
    requested that we perform an assessment of the 10th Edition of the Army Chief
    Financial Officers (CFO) Strategic Plan.

    Financial Management and Reporting Standards. Since 1990, the Congress
    has established extensive financial management and reporting requirements. The
    Chief Financial Officers Act of 1990, as extended by the Government
    Management Reform Act of 1994, required all major Executive branch agencies,
    their components, and the Federal Government to prepare financial statements
    and submit them to the test of an independent audit. The Government
    Performance and Results Act of 1993 required agencies to report on plans and
    performance systematically. Three years later, the Federal Financial Management
    Improvement Act of 1996 required that agencies install integrated systems
    capable of following applicable accounting standards. Compliance with these
    laws requires financial and functional managers to cooperate in integrating their
    processes and systems.

    The CFO Strategic Plan. Deficiencies in financial management systems and
    uncorrected material internal control weaknesses have prevented the Army from
    obtaining an unqualified audit opinion on its financial statements. Army
    managers do not receive sufficient or reliable financial information needed to
    effectively manage day-to-day operations. The Army developed the CFO
    Strategic Plan to improve its processes and systems. The CFO Strategic Plan is
    intended to resolve the systemic problems affecting the accuracy, reliability, and
    timeliness of financial information, and to facilitate obtaining an unqualified
    financial statement audit opinion.

            Responsibilities. The DASA (FO) maintains the CFO Strategic Plan and
    chairs quarterly in-process reviews with all responsible staff agencies to ensure
    that key actions occur as planned. Twenty different DoD and Army staff agencies
    share in the responsibility of executing the CFO Strategic Plan, developing
    implementation plans for each task, allocating resources, and providing the
    milestone dates when actions must be completed. By establishing implementation
    plans, staff agencies explain details of how they will implement the tasks assigned
    to them. See Appendix B for a list of the staff agencies responsible for tasks in
    the CFO Strategic Plan.

            Plan Structure. The CFO Strategic Plan is organized in a hierarchical
    structure of uniquely numbered tasks. Each line consists of one task. Top-level
    tasks (levels 1 through 3) are generally wide in scope with little detail, but detail-
    level tasks (levels 4 through 8) are generally narrow in scope with more detail, as
    shown in Table 1.




                                          1
                  Table 1. Example from the CFO Strategic Plan

 Task Number                Task Description

 1                          Accurately report Balance Sheet

 1.1                        Accurately report assets

 1.1.1                      Accurately report Fund Balance with Treasury

 1.1.1.1                    Discovery and correction

                            Identify requirements to accurately report Fund
 1.1.1.1.1                  Balance with Treasury

                            Issue and implement guidance for resolving the
 1.1.1.1.1.1                unreconciliable amounts on the check issue differences

Each task or line includes:

         •   a number that identifies the task and its place in the hierarchy (such as
             1.1.1),

         •   the staff agency responsible for the task,

         •   task start and finish dates, and

         •   task status.

The January 2007 version of the 10th Edition of the CFO Strategic Plan had a
total of 1,782 tasks: 8 first-level, 35 second-level, 244 third-level, 282 fourth-
level, 394 fifth-level, 530 sixth-level, 176 seventh-level and 113 eighth-level.

        Financial Requirements Definitions. The CFO Strategic Plan addresses
requirements related to the list of tasks. The financial requirements addressed by
the CFO Strategic Plan cover federal accounting principles and standards, internal
control standards, and financial management requirements, such as:

         •   public laws,

         •   Office of Management and Budget publications,

         •   Department of the Treasury manuals,

         •   Federal Accounting Standards Advisory Board pronouncements,




                                        2
            •   DoD Financial Management Regulation 7000.14R (DoD FMR), and

            •   The “Guide to Federal Requirements for Financial Management
                Systems” Version 5.0, November 2006, prepared by the Business
                Requirements and Integration Division, Defense Finance and
                Accounting Service (DFAS) Indianapolis Operations.

     Financial Statements. Table 2 shows the magnitude of DoD Agency-Wide Total
     Assets, Total Net Cost of Operations, and Total Budgetary Resources accounted
     for by the Army. The Army accounts for 28 percent, or $294.3 billion, of the
     $1,055.3 billion in DoD Agency-Wide Budgetary Resources for FY2007. The
     amount of Army Budgetary Resources is material to the DoD Agency-Wide
     Financial Statements.

                         Table 2. Totals as of September 30, 2007
                                      ($ in billions)
                           Army Working                               DoD Agency-Wide
                                              Army General Fund
                            Capital Fund                                Consolidated
    Total Assets               $23.7                  $263.2               $1,506.3
    Total Net Cost of           ($2.5)                $168.9                 $622.5
    Operations
    Total Budgetary            $19.3                  $275.0               $1,055.3
    Resources

Objectives
     The DoD Office of Inspector General (OIG) assessed the 10th Edition of the
     Army Chief Financial Officers Strategic Plan to determine whether the plan:

            •   included the actions needed to implement known financial
                requirements across functional areas,
            •   adequately identified corrective actions needed to address known
                operational and financial material internal control weaknesses, and

            •   contained feasible milestone dates.


Review of Internal Controls
     The agreed-upon procedures for this assessment did not include a review of the
     internal controls over the CFO Strategic Plan.




                                         3
           Army CFO Strategic Plan
           The Chief Financial Officers Strategic Plan has improved the Army’s
           ability to identify and track the broad tasks necessary to comply with
           financial requirements and correct internal control weaknesses. However,
           the staff agencies have not developed implementation plans needed to
           support the CFO Strategic Plan. The lack of detailed staff agency
           implementation plans prevented the CFO Strategic Plan process from
           identifying specific actions needed to implement financial requirements
           and to correct material internal control deficiencies. The lack of staff
           agency implementation plans also prevented the CFO Strategic Plan from
           presenting reliable milestones for task completion. Neither DASA (FO)
           nor the staff agencies had issued guidance addressing policies and
           procedures for the CFO Strategic Plan process. Also, the DASA (FO) did
           not have the authority to effectively implement the CFO Strategic Plan.
           As a result, the lack of staff agency implementation plans has hindered
           progress towards achieving financial accountability and obtaining an
           unqualified audit opinion. Also, the Army has made only limited progress
           towards achieving financial accountability and obtaining an unqualified
           audit opinion on the Army financial statements. Until the Army achieves
           these goals, its financial resources are at risk. If the Army cannot achieve
           an unqualified audit opinion, the DoD Agency-Wide and the Federal
           Government-Wide financial statements will not achieve one.


Implementation Plans
    Staff agency implementation plans serve as the connecting link between the CFO
    Strategic Plan, the actions completed, and the plans for corrective actions. They
    should track and document all actions taken by staff agencies to complete their
    assigned tasks. The CFO Strategic Plan states that:

           It is now up to each staff agency to ensure that an implementation plan
           is in place that will enable them to accomplish each task. Each staff
           agency’s plan must identify the specific activities and resources
           required to complete each task. This follow-through must occur so that
           we will collectively accomplish the plan’s goals. There are myriad
           tasks in this Plan, and establishing priorities for the tasks must rest with
           each responsible functional component.

    However, none of the staff agencies had developed an implementation plan that
    addressed the CFO Strategic Plan tasks. Only one staff agency had an
    implementation plan, but that plan did not address any of the tasks in the CFO
    Strategic Plan. As a result, the CFO Strategic Plan was not supported by detailed
    plans for the staff agencies to meet accounting requirements, effectively address
    material internal control weaknesses, measure and monitor task progress and
    accomplishment, or present reliable milestone dates.

    During FY 2008, the DASA (FO) assisted several staff agencies in developing
    implementation plans for CFO Strategic Plan tasks related to Environmental
    Liabilities and General Property, Plant, and Equipment. The implementation
    plans will serve as tactical-level, step-by-step process documents that will result

                                                4
    in satisfactory completion of CFO Strategic Plan tasks. The DASA (FO) notified
    us that the Assistant Chief of Staff for Installation Management has completed a
    draft implementation plan to address their assigned tasks related to Environmental
    Liabilities and that the Army Materiel Command, the Army Installation
    Management Command, and the Army Chief Information Officer have completed
    draft implementation plans related to General Property, Plant, and Equipment.


Financial Requirements
    In order to be an effective tool for achieving an unqualified audit opinion on the
    Army’s financial statements, the CFO Strategic Plan should include detailed
    actions for addressing all financial requirements.

    Financial requirements are the Federal Government’s significant laws and
    regulations related to Federal accounting standards and financial management
    systems and business operations. They provide policies and processes necessary
    to develop accurate, reliable, and timely financial information. (See “Financial
    Requirements Definitions.”)

    In the CFO Strategic Plan process, the staff agencies are responsible for
    developing implementation plans that identify the specific actions and resources
    required to complete their assigned tasks. The staff agencies did not develop
    implementation plans that linked the actions to their related financial
    requirements. As a result, the CFO Strategic Plan did not include the specific
    actions needed to implement known financial requirements related to each task.

    In addition, the CFO Strategic Plan did not identify the known financial
    requirements for many of the other tasks. Appendix B of the CFO Strategic Plan
    includes columns to identify the financial requirements addressed by each task.
    However, these columns were blank for 76.2 percent of the non-audit related
    tasks. In order to determine whether the CFO Strategic Plan addresses all known
    financial requirements, each task in the CFO Strategic Plan should be aligned
    with a financial requirement.

    The 10th Edition of the CFO Strategic Plan identified 1,782 tasks. Of these,
    1,548 were assigned to staff agencies responsible for improving specific aspects
    of Army financial operations. The remaining 234 tasks were for the DoD OIG
    and the U.S. Army Audit Agency to confirm that the staff agencies had
    successfully completed their assigned tasks.

    Of the 1,548 non-audit tasks, 240 were top-level tasks that encompass broad
    accounting objectives, such as “Accurately report Balance Sheet,” “Accurately
    report Assets,” and “Accurately report Fund Balance with Treasury.” The
    remaining 1,308 non-audit tasks were detail-level tasks, which were narrower in
    scope and more detailed. Of these 1,308 detail-level tasks, 959 made no reference
    to the financial requirements related to the tasks. Of the 349 tasks that identified
    a financial requirement, 194 referred to both the DoD FMR and another
    Government requirement, and 56 referred to only the DoD FMR. Table 3 shows
    the number and type of references for the 1,548 non-audit-related tasks.



                                         5
               Table 3. CFO Strategic Plan References to Financial Requirements
                                         Tasks With Identified Requirements                    Tasks Without
                                                                                                 Identified
        Task Levels         DoD FMR           Other*            Both             Total        Requirements**
                             Number/         Number/          Number/           Number/           Number/
                             Percent         Percent          Percent           Percent           Percent
     Levels 1-3
                            13 5.4%          5   2.1%       1     0.4%       19     7.9%      221 92.1%
     240 tasks
     Levels 4-8
                            56 4.3%         99   7.6%     194 14.8%        349 26.7%          959 73.3%
     1,308 tasks
     All non-audit tasks
                            69 4.5%        104   6.7%     195 12.6%        368 23.8% 1,180 76.2%
     1,548 tasks
     *Including Federal Accounting Standards Advisory Board statements, public laws, and guidance from the
     Department of Treasury, the Office of Management and Budget, and the Government Accountability Office.
     **Includes tasks with “N/A” in the DoD FMR or Gov’t Reference (Other) column in Appendix B of the
     CFO Strategic Plan.




Control Weaknesses
            Operational and financial material internal control weaknesses are deficiencies
            that could adversely affect the agency’s ability to meet its objectives. The
            operational and financial material internal control weaknesses are identified in the
            Army and DFAS Annual Statements of Assurance, the Army financial statements,
            and audit reports issued by the DoD OIG. Examples of these material internal
            control weaknesses are:

                      •   intragovernmental transactions and eliminations,1

                      •   abnormal account balances,2 and

                      •   accounting adjustments.3

            Although the CFO Strategic Plan contained broad tasks related to all known
            operational and financial material internal control weaknesses, it did not identify
            the specific actions necessary to correct these weaknesses. Each broad task
            related to a material internal control weakness should contain detailed actions, or
            be supported by staff agency implementation plans, that identify the corrective
            actions necessary to correct the weakness. However, the broad tasks did not
            always contain detailed actions or supporting implementation plans that described
            the actions necessary to correct or solve the weaknesses or implement the audit
            recommendations.

1
    DFAS makes unsupported adjustments to Army accounts to bring them into agreement with financial data
    submitted by its trading partners so that intragovernmental eliminations can be made.
2
    An account has an abnormal balance when a general ledger account should have a positive balance and it
    actually has a negative balance (or the reverse).
3
    Unsupported adjustments made to force general ledger accounts to agree with status of appropriations
    data.

                                                       6
Milestone Dates
           The milestone dates for many of the tasks dependent on the implementation of
           critical systems were not feasible because the task milestone dates did not line up
           with implementation dates for those systems. Milestone dates are the actual or
           estimated start and finish dates for the tasks, and these dates are dependent on
           critical system implementation dates and subtask milestone dates. In addition,
           many of the milestone dates were unreliable because new subtasks were added to
           each edition of the plan that caused the milestones for dependent tasks to change.

           Critical System Implementation Dates. In many cases, completion of a task in
           the CFO Strategic Plan depended on the implementation of a system or subsystem
           that would provide critical support and capabilities for that task. The staff
           agencies identified 12 systems whose implementation was critical to the
           completion of 103 tasks. See Appendix C for a list of these critical systems.

           We were able to obtain implementation dates for eight critical systems.
           According to the staff agencies, 77 tasks were dependent on the implementation
           of these 8 systems. Of these 77 tasks, 18 had projected completion dates prior to
           the system implementation dates. For example, the task, “Identify and account
           for Excess, Obsolete and Beyond Repair OM&S,” has a finish date of
           December 31, 2009.4 However, this task is dependent on the implementation of
           the General Fund Enterprise Business System, which is scheduled for December
           31, 2010.

           The proponents for the remaining four systems did not provide us with
           implementation dates. The four systems were:

                    •   Funds Control Module, to be used by the Program Executive Office,
                        Enterprise Information Services;

                    •   Business Enterprise Information Services (Army Working Capital
                        Fund), to be used by DFAS Indianapolis;5

                    •   Defense Cash Accountability System, to be used by DFAS
                        Indianapolis; and

                    •   Defense Departmental Reporting System-Budgetary (Army Working
                        Capital Fund), to be used by DFAS Indianapolis.

           As a result, we were unable to assess the feasibility of the milestone dates for the
           26 tasks the staff agencies had identified as dependent on the implementation of
           these four systems.

           The staff agencies did not identify all tasks dependent on the implementation of
           these 12 critical systems. For example, the implementation of Business
           Enterprise Information Services directly affects several tasks critical to both the
           Army General Fund and the Army Working Capital Fund. However, the staff

4
    Operating Materials and Supplies
5
    In this context, Business Enterprise Information Services includes only the Defense Corporate Database
    and the Defense Corporate Warehouse.

                                                      7
agencies did not identify the dependent relationship of these tasks on the
implementation of the Business Information Services. These include correcting
two material internal control weaknesses: abnormal account balances and ending
balance adjustments. The financial information used by DFAS to prepare the
FY 2007 Army financial statements contained $163.8 billion in abnormal
balances, and DFAS made another $83.7 billion in unsupported ending balance
adjustments. Until these deficiencies are corrected, the Army can not achieve an
unqualified opinion on its financial statements. Because these tasks were not
identified as dependent on the implementation of the Business Enterprise
Information Services, we were unable to determine the feasibility of the task
milestone dates. The DASA (FO) should ensure that task completion dates are
aligned with critical system implementation dates.

Milestone Date Changes. The task milestone dates varied greatly among the
different editions of the CFO Strategic Plan, which brings into question the
reliability of those dates. We examined the four most recent editions of the CFO
Strategic Plan and found that start and finish dates frequently changed after tasks
had begun or had been completed. In some instances these changes occurred
because the staff agencies added new subtasks in each edition of the CFO
Strategic Plan. The milestone dates for these new subtasks resulted in changes to
the milestone dates for dependent tasks.

        Start Dates. Many task start dates in the 10th Edition of the CFO
Strategic Plan were inconsistent with previous editions. For 30 tasks, the start
date in the 10th Edition was earlier than in previous editions, even though the task
had already started. For example, in the 9th Edition the start date of the task,
“Accurately report Working Capital Fund Other Assets,” was October 1, 2001,
and the task was 22 percent complete; but in the 10th Edition the start date was
October 1, 1998, and the task was 9 percent complete.

For 21 tasks, the start date was later in the 10th Edition than in previous editions,
even though the tasks were in progress when the start date was changed. For
example, in the 9th Edition of the CFO Strategic Plan, the task, “Improve Internal
Controls and Compliance with Laws and Regulations,” had a start date of
September 30, 1988, and was 42 percent complete. In the 10th Edition, the start
date was changed to September 30, 1996, and the task was 24 percent complete.
        Completion Dates. Many task completion dates in the 10th Edition of the
CFO Strategic Plan were inconsistent with previous editions. The completion
dates for some tasks are dependent on the completion dates for other tasks. When
a new task is added, or the completion date for a task changes, the completion
date for a task that is dependent on the new or changed task will also change.

For 29 tasks, the completion dates changed in the 10th Edition, although they
were shown as completed in the 9th Edition. For example, the 9th Edition
indicated that the task entitled “Accurately report Military Retirement
Benefits…” was completed on November 5, 2004. However, the 10th Edition
indicated that the task would not be completed until December 31, 2010. This
task was dependent on the completion of a new task that was added in the 10th
Edition. As a result, the completion date changed to match the completion date
for the new task.

In some instances, the task completion dates changed for no apparent reason. The
9th Edition, issued in October 2005, indicated that 391 tasks were completed.
                                      8
    The completion date for five of these tasks changed in the 10th Edition to a date
    prior to October 2005. For example, the task, “Base all records for Inventory on
    original applicable source documentation…,” had a completion date of
    December 31, 2008, in the 9th Edition. In the 10th Edition, the completion date
    was changed to October 2, 1998, which is not only earlier than the completion
    date in the 9th Edition, but is earlier than the issue date for the 9th Edition.

    The staff agencies indicated that detail-level tasks were either added or deleted in
    the CFO Strategic Plan, which caused higher-level task milestone dates to change.
    The DASA (FO) should ensure that CFO Strategic Plan task completion dates are
    aligned with critical system implementation dates. In addition, staff agency
    implementation plans should develop an effective method to monitor and control
    the accuracy of the CFO Strategic Plan milestone dates. Due to the high number
    of changes – 342 start dates and 738 completion dates – the milestone dates in the
    CFO Strategic Plan are unreliable.


Guidance and Direction
    Neither DASA (FO) nor the staff agencies had issued guidance addressing the
    policies and procedures for the CFO Strategic Plan process. Due to the lack of
    guidance, there was inconsistency among the staff agencies in the identification
    and initiation of new tasks, and in updating the CFO Strategic Plan. These
    inconsistencies among the staff agencies have hindered the CFO Strategic Plan’s
    effectiveness as a tool for achieving an unqualified audit opinion.

    DASA (FO) Policies and Guidance. DASA (FO) did not develop and issue
    guidance to the responsible staff organizations governing their roles and
    responsibilities. Although the CFO Strategic Plan assigned the responsibility for
    developing implementation plans, the DASA (FO) did not provide guidance on
    the form and content of the plans. In addition, DASA (FO) did not ensure that the
    staff agencies had developed the necessary implementation plans. As a result, the
    responsible staff agencies did not develop implementation plans. The
    DASA (FO) should develop guidance that:

           •   provides instructions on form and content of implementation plans,

           •   provides instructions on documenting the progress of task completion,

           •   includes procedures for developing and updating milestone dates, and

           •   identifies roles and responsibilities for plan management and
               implementation for the DASA (FO) and for the staff agencies.

    The Secretary of the Army should issue policy to ensure that staff agencies
    implement the guidance. The Secretary’s support is needed because the Army
    staff agencies do not report to the DASA (FO). Therefore, the DASA(FO) did not
    have the authority to effectively implement the CFO Strategic Plan. In addition,
    The Director, Defense Finance and Accounting Service should implement the
    standards and guidance issued by the DASA (FO).




                                         9
       Staff Agencies. Staff agencies did not document task identification,
       requirements, completion, deletions, or staff coordination on tasks. Completion
       dates for tasks changed with each edition of the CFO Strategic Plan, but the
       reasons for changes were not recorded.

       Each staff agency responsible for completing CFO Strategic Plan tasks should
       implement standard operating procedures governing how the staff agency will
       develop and control implementation plans, in accordance with guidance to be
       issued by the DASA (FO). In addition, staff agencies should develop plans and
       internal procedures on how to manage current tasks, identify and initiate new
       tasks, and update the CFO Strategic Plan. Turnover among staff agency
       personnel also emphasizes the need for operating procedures to help ensure
       project continuity and success.


Financial Accountability
       The Army’s CFO Strategic Plan has the potential to be a highly effective tool to
       achieve an unqualified audit opinion. The U.S. Army Audit Agency first issued a
       disclaimer on the FY 1993 Army financial statements, and the CFO Strategic Plan
       has been the Army’s approach for achieving compliance with the Chief Financial
       Officers Act since 1998. However, as Table 4 shows, the percentage of
       completed tasks has decreased from 32 percent to 28.6 percent over the last four
       editions of the CFO Strategic Plan. In addition, the average estimated time to
       complete a task has increased from 2.25 years to over 3.3 years. Although the
       number of completed tasks has increased from 232 to 510, the number of
       uncompleted tasks has increased from 494 to 1,272. Since FY 2004, the Army’s
       goal for an unqualified audit opinion on its financial statements has been extended
       7 years, from FY 2010 to FY 2017. Although the Army has made progress in
       completing tasks, it has added more tasks with each CFO Strategic Plan edition.
       As a result, the percentage of completed tasks has decreased with each CFO
       Strategic Plan edition, and the Army is proportionally no closer to achieving the
       goal of an unqualified audit opinion on its financial statements.

                   Table 4. Changes in CFO Strategic Plan Task Status
CFO Strategic Plan Edition              7th               8th        9th        10th
Strategic Plan Years               FY 2004-07 FY2005-09          FY2006-11    FY2007-12
Number of Tasks                         726              1182       1455        1782
Average Percent Complete                41.5             41.7        39.5       40.2
Completed Tasks (Percent)           232 (32.0)        313 (26.5) 391 (26.9)   510 (28.6)
Tasks not started (Percent)         365 (50.3)        455 (38.5) 640 (44.0)   774 (43.4)
Average Completion Level                 54               43          43         41
of Ongoing Tasks*
Average Start Date                  6/22/2002         1/26/2003   2/14/2004    12/7/2004
Average Finish Date                  9/26/2004       11/22/2005   2/18/2007    4/3/2008
                                      2 Years,         2 Years,    3 years      3 Years,
Difference                           3 Months         8 Months                 4 Months
Last Task Completed                  9/30/2007       10/30/2009  11/15/2013   11/19/2013
*Those tasks that had a completion percentage from 1 to 99.




                                            10
          Although the CFO Strategic Plan has improved the Army’s ability to identify and
          track the tasks necessary to comply with financial requirements and correct
          internal control weakness, the lack of staff agency implementation plans has
          hindered progress towards achieving financial accountability and obtaining an
          unqualified audit opinion on the Army financial statements. As long as the CFO
          Strategic Plan does not specify the actions needed to implement known financial
          requirements, identify corrective actions needed to address material internal
          control weaknesses, and contain feasible milestone dates, the Army will continue
          to suffer delays in its efforts to improve financial management. Financial
          management problems exist in almost all of the Army’s business operations and
          systems. Until the Army corrects these problems, its financial accountability and
          reported financial data will continue to be unreliable, and Army management will
          not receive the full range of information needed to effectively manage day-to-day
          operations. In addition, the Army will remain unable to achieve an unqualified
          audit opinion, and its financial resources will remain at risk.6 If the Army cannot
          achieve an unqualified audit opinion, the DoD Agency-Wide and the Federal
          Government-Wide financial statements will not achieve one, either.


Recommendations, Management Comments, and Audit
  Response
          1. We recommend that the Secretary of the Army issue policy to ensure that
          Army staff agencies follow Deputy Assistant Secretary of the Army
          (Financial Operations) guidance concerning the CFO Strategic Plan process.

          Management Comments: The Secretary of the Army did not provide formal
          written comments.

          Audit Response: We request that the Secretary of the Army provide comments to
          the final report.

          2. We recommend that the Deputy Assistant Secretary of the Army
          (Financial Operations):

                   a. Develop guidance for staff agencies that includes:

                           1) instructions on form and content of implementation plans,

                           2) procedures for developing and updating milestone dates, and

                           3) instructions on documenting the progress of task completion.

                b. Identify the roles and responsibilities for plan management and
          implementation for the Deputy Assistant Secretary of the Army (Financial
          Operations) and for the staff agencies.

                 c. Ensure that CFO Strategic Plan task completion dates are aligned
          with critical systems implementation dates.

6
    See Table 2 for magnitude of resources involved.

                                                       11
Management Comments. The Deputy Assistant Secretary of the Army
(Financial Operations) concurred and will develop a desk guide for staff agencies,
identify the requirements to support updating the Plan and develop and maintain
tactical plans to support the Plan. The Deputy Assistant Secretary of the Army
(Financial Operations) stated that action has already been taken to align critical
system dates with the Plan task dates.

Audit Response. Management’s comments are responsive to the
recommendations and no further comments are required.

3. We recommend that the Director, Defense Finance and Accounting
Service, implement the standards and guidance issued by the Deputy
Assistant Secretary of the Army (Financial Operations).

Management Comments. The Director, Defense Finance and Accounting
Service Indianapolis Operations concurred and will implement the standards and
guidance that the Deputy Assistant Secretary of the Army (Financial Operations)
issues.

Audit Response. Management’s comments are responsive to the
recommendations and no further comments are required.




                                    12
Appendix A. Scope and Methodology
   We performed this assessment of the Chief Financial Officers (CFO) Strategic
   Plan at the request of the Assistant Secretary of theArmy (Financial Management
   & Comptroller). The assessment included a review of the October 2006 version
   of the 10th edition of the CFO Strategic Plan. We examined the 7th, 8th, and 9th
   editions to determine the number of tasks included in each. We also examined the
   procedures used by the Deputy Assistant Secretary of the Army (Financial
   Operations) to monitor and manage the CFO Strategic Plan. We reviewed the
   procedures related to the CFO Strategic Plan used by the Defense Finance and
   Accounting Service Indianapolis and 16 Army staff agencies responsible for
   executing tasks specified in the plan. We interviewed personnel at these agencies
   and obtained answers to two questionnaires related to the CFO Strategic Plan
   from them. We also contacted the proponents of 10 Army automated accounting
   systems critical to the execution of the CFO Strategic Plan, but we did not receive
   responses from 4 system administrators, which created a scope limitation.

   We reviewed requirements established by the Federal Accounting Standards
   Advisory Board, the U.S. Treasury, the Government Accountability Office, the
   Office of Management and Budget, and the Office of the Under Secretary of
   Defense (Comptroller and Financial Officer).

   We did not review the tasks of the U.S. Army Audit Agency and the DoD OIG
   because none of the tasks assigned to these agencies had started. We did not
   review the tasks assigned to the U.S. Army Corps of Engineers because its
   requirements had already been satisfied.

   We conducted this attestation engagement from January 2007 through
   February 2008 in accordance with generally accepted government auditing
   standards, which incorporate the financial audit and attestation standards
   established by the American Institute of Certified Public Accountants. The
   DoD OIG was not engaged to perform, and did not perform, an examination with
   an objective to express an opinion. We do not express an opinion on whether the
   Army has complied with any Federal laws and regulations. The DoD OIG neither
   assisted in the preparation of the information required to perform the agreed-upon
   procedures nor provided any internal control functions, which are the
   responsibility of the Assistant Secretary of the Army (Financial Management &
   Comptroller).

   Use of Computer-Processed Data. We did not use any computer-processed data
   to perform this attestation engagement.

   Government Accountability Office High-Risk Area. The Government
   Accountability Office has identified several high-risk areas in DoD. This report
   provides coverage on: the Army’s overall approach to business transformation,
   business systems modernization, financial management and information systems,
   and critical infrastructure.




                                       13
Prior Coverage.
    There has been no coverage of the Army CFO Strategic Plan during the last
    5 years.




                                      14
Appendix B. Staff Agencies
   The following staff agencies have responsibilities for tasks in the CFO Strategic
   Plan.

   Department of Defense

          •   Office of the Under Secretary of Defense (Comptroller)

          •   Office of the Under Secretary of Defense (Acquisition, Technology
              and Logistics)

          •   Defense Finance Accounting Service Indianapolis Operations Center

          •   Department of Defense Office of Inspector General

   Department of the Army

          •   Assistant Secretary of the Army for Manpower and Reserve Affairs,
              G-1

          •   Plans and Operations, Army G-3

          •   Assistant Secretary of the Army for Acquisition, Logistics and
              Technology, G-4

          •   Chief Information Officer, G-6

          •   Assistant Secretary of the Army for Civil Works

          •   Army Study Program Management Office, G-8

          •   Army Materiel Command

          •   Chief, National Guard Bureau

          •   Office of the Assistant Chief of Staff for Installation Management

          •   Installation Management Command

          •   Army Medical Command

          •   Office of the Assistant Secretary of the Army (Financial Management
              and Comptroller)

          •   Office of the Assistant Secretary of the Army (Acquisition, Logistics
              and Technology)

          •   Program Executive Officer Enterprise Information System



                                       15
•   The Judge Advocate General

•   Auditor General, Department of the Army




                           16
Appendix C. Financial Management Systems
   We identified 12 critical systems not fully implemented as of September 30, 2006
   and 103 tasks dependent on the critical systems.

   Proponents provided implementation dates for:

      •   Business Enterprise Information Services (Army General Fund),

      •   Capital Asset Management System Military Equipment,

      •   Defense Departmental Reporting System – Budgetary (Army General
          Fund),

      •   General Fund Enterprise Business System,

      •   Global Combat Support System,

      •   Item Unique Identification,

      •   Logistics and Modernization System, and

      •   Property Book Unit Supply Enhanced System.

   Proponents did not provide implementation dates for:

      •   Business Enterprise Information Services (Army Working Capital Fund),

      •   Defense Cash Accountability System,

      •   Defense Departmental Reporting System – Budgetary (Army Working
          Capital Fund), and

      •   Funds Control Module.




                                        17
Appendix D. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)

Department of the Army
Assistant Secretary of the Army (Financial Management & Comptroller)
Deputy Assistant Secretary of the Army (Financial Operations)
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Finance and Accounting Service

Non-Defense Federal Organizations
Office of Management and Budget




                                          18
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Oversight and Government Reform
House Subcommittee on Government Management, Organization and Procurement,
  Committee on Oversight and Government Reform
House Subcommittee on National Security and Foreign Affairs,
  Committee on Oversight and Government Reform




                                      19
Office of the Assistant Secretary of the Army
(Financial Management & Comptroller)
Comments




                        21
22
23
Defense Finance and Accounting Service
Indianapolis Operations Comments




                      24
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Defense Financial Auditing Service prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.


Patricia A. Marsh
Jack L. Armstrong
Mark A. Ives
Paul C. Wenzel
Cheri D. Givan
Mary K. Murphy
G. Marc Queck
Joseph A. Baer
Ellen Kleiman-Redden
